                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                       ACTION MEMORANDUM

TO: AIGI       File Number: A-01 100032                                             Date: 01/29/02

Subject: Case Closeout                                                                        Page 1 of 2


      On 3 October 2001, the complainant,' who received the subject's NSF proposal2for review, alleged
      that the main theme in the subject's proposal was taken from one or both of the complainant's two
      essentially identical previously submitted NSF proposals.3 The complainant suspected that the
      subject, who served as a panelist for many proposals submitted to this particular NSF program,
      reviewed his proposal and took his basic idea for the project.

      Our review noted that the theme and objectives in the complainant's and the subject's proposals were
      similar, although some aspects of the proposed projects were different. We also noted that three of
      the four ad hoc reviewers of the subject's proposal said that the subject's proposal contained ideas
      andlor hypotheses that were neither novel nor unique. Similarly, we noted that several ad hoc
      reviewers of the complainant's two proposals said that the project and/or hypotheses were neither
      novel nor unique. The reviewers of the complainant's proposals considered the selection of location
      and the consequent conditions to be the unique aspect of the project. Both the location and the
      resulting conditions were different in the subject's proposal.

      We determined that the complainant's and subject's proposals used a theme, associated ideas, and
      hypotheses that represented a more general scientific approach used by other scientists in this field


                                     t, is a faculty member in the Department of-




                Prepared by:

               Agent:
                               I   Attorney:
                                                        Cleared by:

                                                      Supervisor:         AIGI
   Name:                                                                               q
                                                                                       3Ld
                                                                                          .
 signature &
    date:
    ,a
.                                        NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                      ACTION MEMORANDUM

TO: AIGI          File Number: A-01 100032                                          Date: 01/29/02

Subject: Case Closeout                                                                        Page 2 of 2


         of study that was applied to specific study locations and conditions. We concluded that there was
         no substance to the allegation that the subject stole the complainant's basic idea and used it in his
         NSF proposal.

         This inquiry is closed and no further action will be taken.
